   October 16, 2003




Acquisition

Selected Purchase Card Transactions
at Washington Headquarters Services
and Civilian Personnel Management
Service
(D-2004-002)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Information and Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN) 664-8937 or fax
  (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20302-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CD-ROM              Compact Disc Read Only Memory
CPMS                Civilian Personnel Management Service
DCIS                Defense Criminal Investigative Service
DVD                 Digital Video Disc
FAR                 Federal Acquisition Regulation
GAO                 General Accounting Office
GSA                 General Services Administration
IG DoD              Inspector General of the Department of Defense
LCD                 Liquid Crystal Display
OSD                 Office of the Secretary of Defense
RE&F                Real Estate and Facilities
WHS                 Washington Headquarters Services
         Office of the Inspector General of the Department of Defense
Report No. D-2004-002                                                   October 16, 2003
 (Project No. D2002CM-0117)

                    Selected Purchase Card Transactions at
                    Washington Headquarters Services and
                    Civilian Personnel Management Service

                                Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, purchase
card program managers, approving officials, and cardholders should read this report to
help identify potential problem areas in their purchase card programs. This report
identifies control weaknesses and the fraud, waste, and abuse that can occur in the
purchase card program, some of which have been identified throughout the program.
After reading this report, managers will be able to better assess their own purchase card
programs and make adjustments that will strengthen their respective programs.

Background. This report is one in a series of reports that documents satisfaction of the
requirements in Section 1007 of the FY 2003 National Defense Authorization Act that
the Inspector General of the Department of Defense perform periodic audits of the
purchase card program. The purchase card is a Government-wide commercial charge
card available to offices and organizations for the purchase of goods and services. In
FY 2001, DoD made 10.6 million purchases with the Government purchase card totaling
$6.1 billion; in FY 2002, DoD made 11 million purchases valued at $6.8 billion.

This audit was conducted as part of the Joint Audit of Selected DoD Purchase Card
Transactions and addressed purchase card transactions at two DoD field activities, the
Washington Headquarters Services and the Civilian Personnel Management Service
under the Defense Human Resources Activity. The Washington Headquarters Services
provides operational support and administrative services to DoD Components, and the
Civilian Personnel Management Service provides corporate level leadership in human
resources management throughout DoD. For the Washington Headquarters Services,
4,788 transactions valued at about $6.9 million were reviewed. For the Civilian
Personnel Management Service, five transactions totaling $169 were identified by data
mining and reviewed.

Results. Washington Headquarters Services management controls for the purchase card
program did not ensure that 4,047 purchases, made by 12 cardholders in the Graphics and
Presentations Division, totaling about $6 million, were mission related, properly
safeguarded, and provided the best value for the Government.

Management controls for the purchase card program were not implemented in the
13-person Graphics and Presentations Division of the Washington Headquarters Services,
resulting in about $1.7 million of fraudulent purchases from May 1999 through
August 2002 and at least $201,000 in additional abusive, improper, and unauthorized
purchases (finding A). Property costing at least $50,000, purchased with Government
purchase cards, was not recorded on the inventory records and could not be located. As a
result, an undeterminable amount of property may be misplaced, lost, or stolen
(finding B). Also, cardholders created noncompetitive procurements by using split
purchases and not rotating purchases among qualified vendors. As a result, the
Department paid one vendor $36,000 to purchase an item that should cost $3,000 and
may not have received the best value for purchases totaling at least $511,500 from other
vendors (finding C). No problems were identified with the transactions reviewed for the
three other divisions under Washington Headquarters Services and the two cardholders in
the Civilian Personnel Management Service.

The Director of Washington Headquarters Services should initiate a review and take
appropriate administrative actions to hold the approving official and former Agency
Program Coordinator accountable for failure to perform their duties under the purchase
card program; hold cardholders responsible for repayment of unauthorized and abusive
purchases; and hold the Director, Real Estate and Facilities accountable for failing to
ensure the purchase card program policies, laws, and regulations were followed. The
Director should ensure separation of duties for key positions of oversight and allocate
adequate resources to accomplish oversight. The Director should ensure that required
controls are implemented and required oversight and reviews are performed. (For
detailed recommendations, see finding A.) The Director of Washington Headquarters
Services should take measures to record and safeguard property purchased by
cardholders. A complete review of purchase invoices and receipts from May 1999
through August 2002 should be conducted to identify and locate pilferable items. Any
missing property should be investigated and administrative actions taken where required.
(For detailed recommendations, see finding B.) The Director of Washington
Headquarters Services should require periodic reviews of all purchase card transactions
to ensure appropriate use, and include micro-purchases as part of its annual management
control program review and place emphasis on stopping the use of split purchases and
vendor preference. (For detailed recommendations, see finding C.)

Management Actions. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer established a DoD Task Force on March 19, 2002, to examine the management of
DoD charge card programs. On June 27, 2002, the Task Force concluded in a final report
that even though the DoD charge cards were used appropriately by a majority of the
cardholders, audits and investigations revealed incidents of misuse, abuse, and fraud.
The Task Force report contained 25 recommendations for changes in policies and
procedures.

Management Comments and Audit Response. The Director, Washington
Headquarters Services is initiating a thorough, professional investigation headed by a
Senior Executive outside of Washington Headquarters Services to determine the facts
surrounding this report, and will take whatever actions are deemed to be appropriate as a
result of that investigation. While the Director did not concur in any implication that
cardholders, approving officials, the Agency Program Coordinator, or the Director, Real
Estate and Facilities may not have performed their duties or reviews, the Director agreed
to determine any additional culpability and potential liability, beyond the criminal
sanctions already meted out. Also, the Director, Washington Headquarters Services
generally concurred with all of the recommendations for inventory control and
contracting methods. Furthermore, the Director stated that actions would be taken to
strengthen the controls on the purchase card program by implementing the required
reviews and oversight. The Director of Washington Headquarters Services comments are
considered responsive to the recommendations. See the Findings section of the report
and Appendix G for a discussion of management comments and audit response, and the
Management Comments section of the report for a complete text of the comments.



                                           ii
Table of Contents

Executive Summary                                                i

Background                                                       1

Objectives                                                       3

Findings
     A. Purchase Card Accountability                             4
     B. Property Accountability                                 11
     C. Contracting Methods                                     16

Appendixes
     A. Scope and Methodology                                   22
          Management Control Program Review                     23
     B. Prior Coverage                                          25
     C. Department of Justice Press Releases for Sentencing     27
     D. Abusive, Improper, and Unauthorized Purchases           33
     E. Unrecorded and Missing Properties                       38
     F. Audit Results on Flagged Transactions                   39
     G. Management Comments on the Finding and Audit Response   41
     H. Summary of Potential Monetary Benefits                  44
     I. Report Distribution                                     45

Management Comments
     Washington Headquarters Services                           47
Background
    Section 1007, “Improvements in Purchase Card Management,” of the National
    Defense Authorization Act for Fiscal Year 2003 (Public Law 107-314,
    December 2, 2002), states:

           That the Inspector General of the Department of Defense…perform periodic
           audits to identify-

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
               prohibited items; and

           (C) categories of purchases that should be made by means other than purchase
               cards in order to better aggregate purchases and obtain lower prices.

    Federal Purchase Card Program. The purchase card is a Government-wide
    commercial charge card available to offices and organizations for the purchase of
    goods and services. The General Services Administration (GSA) awarded the
    first Government-wide purchase card contract in 1989. The Federal Acquisition
    Streamlining Act of 1994 (Public Law 103-355, October 13, 1994) established
    $2,500 as the micro-purchase threshold and eliminated most of the procurement
    restrictions for purchases identified within that threshold. In 1995, the Federal
    Acquisition Regulation (FAR) designated the purchase card as the preferred
    method to pay for micro-purchases. GSA published a “Blueprint For Success:
    Purchase Card Oversight” in April 2002, to serve as an information source for
    preventing and detecting misuse and fraud with Government purchase cards.
    Purchase cards can also be used for making contract payments.

    DoD organizations are responsible for distributing cards, training employees, and
    managing the daily aspects of the purchase card program. Each participating
    organization designates an office to manage the program, which includes assuring
    that training is provided, a current list of cardholders and approving officials is
    maintained, and an annual oversight review of the program is performed. Also,
    DoD employees are assigned as “approving officials” to authorize and approve
    purchases for payment. Once a cardholder makes an authorized purchase, the
    cardholder and the approving official reconcile the purchased goods and services
    with the bank statement prior to the approving official requesting payment by the
    Defense Finance and Accounting Service.

    According to GSA, over 400,000 cardholders in about 60 agencies made
    purchases totaling about $13.8 billion in FY 2001. GSA reported the Government
    realized savings of about $1.3 billion in administrative costs by using purchase
    cards in FY 2001. The DoD Purchase Card Program Management Office
    reported in May 2002 that DoD made 10.6 million purchases totaling $6.1 billion
    and realized $28.2 million in rebates in FY 2001.

    Purchase Card Joint Program Management Office. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics is responsible for purchase
    card policy and oversight, in coordination with the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer on related finance and accounting policy.


                                             1
In 1998, the Deputy Secretary of Defense established the DoD Purchase Card
Program Management Office to provide a centralized program management
structure over the purchase card program. As of September 2001, DoD had
231,856 purchase cardholders. The Inspector General of the Department of
Defense (IG DoD) and military audit organizations issued more than 300 reports
on purchase cards between FY 1996 and FY 2001 identifying weaknesses in the
DoD purchase card program.

In 2001, at the request of the Director, Defense Procurement, the IG DoD
established a new audit planning subgroup to provide oversight and coordination
of all DoD purchase card audits. Additionally, the DoD Purchase Card Program
Management Office requested that the joint fraud detection and prevention
program expand its program to formally include purchase card transactions,
specifically data mining efforts conducted by the IG DoD and the Air Force Audit
Agency. By incorporating fraud indicators in data mining techniques, purchase
card transactions were identified for review in Military Departments, Defense
agencies, and field activities under the joint audit. The IG DoD reviewed the
identified transactions for the Washington Headquarters Services (WHS) and the
DoD Civilian Personnel Management Service because the organizations did not
have an audit or internal review function.

Washington Headquarters Services. WHS is a DoD field activity that provides
operational and support services to DoD Components and non-DoD activities.
One of the support functions WHS provides is facilities management and the
associated support services for all DoD-occupied administrative space in the
National Capital Region. The Graphics and Presentations Division (Graphics
Division), in the Real Estate and Facilities (RE&F) Directorate, located in the
Pentagon, provides support services such as visual aids for briefings and
presentations, displays for exhibits, print media for publications, and signs and
posters for special events.

DoD Civilian Personnel Management Service. The DoD Civilian Personnel
Management Service, under the Defense Human Resources Activity, provides
corporate level leadership in human resources management. The DoD Civilian
Personnel Management Service develops and manages human resources programs
and systems for DoD, develops and recommends policy, provides guidance on all
aspects of civilian personnel management, and advises all levels of management
in DoD regarding human resources.

DoD Charge Card Task Force. On March 19, 2002, the Under Secretary of
Defense (Comptroller)/Chief Financial Officer established a DoD Task Force to
examine the management of DoD charge card programs. The Task Force
included a broad membership of DoD organizations and consulted with non-DoD
organizations. The goal of the Task Force was to develop recommendations to
improve the Department’s charge card programs without adversely affecting the
effectiveness of the programs. The Task Force concluded that the Department’s
purchase card and travel charge card programs represent sound cost-saving
business practices and that the vast majority of our military and civilian personnel
use Government charge cards appropriately and exercise proper fiscal
stewardship of taxpayer resources. Problems, however, were identified. Purchase
card audits and investigations revealed incidents of misuse, abuse, and fraud.
Causes included inadequate command emphasis and poorly enforced internal
controls. The Department of Defense Charge Card Task Force Final Report,


                                     2
    June 27, 2002, contained 25 recommendations for change in policies and
    procedures. The recommendations included increasing management emphasis
    and implementing improved management metrics, strengthening internal controls
    and increasing the tools available to managers for enforcing those controls, and
    enhancing the capability of the workforce to accomplish assigned charge card
    responsibilities, to include training and recommending the minimum skills
    required to perform essential charge card management tasks.

Objectives
    Our overall audit objective was to determine whether selected purchases made by
    cardholders identified through data mining techniques were appropriate.
    Additionally, we reviewed the management controls related to the identified
    purchase card transactions. See Appendix A for a discussion of the scope and
    methodology and our review of the management control program. See
    Appendix B for prior coverage and Appendix H for a summary of potential
    monetary benefits.




                                        3
           A. Purchase Card Accountability
           Washington Headquarters Services (WHS) purchase card program
           controls were not followed in the Real Estate and Facilities (RE&F)
           Directorate. The condition occurred because the program was not
           properly established and because controls were not enforced throughout
           the purchase card process. The approving officials, the Agency Program
           Coordinator (Program Coordinator), and the Director of RE&F did not
           perform their duties regarding the review and oversight of the purchase
           card program. As a result, the Director of the Graphics and Presentations
           Division (Graphics Division) made $1.7 million in fraudulent purchases
           from May 1999 through August 2002. Employees were also allowed to
           make at least $201,000 in additional abusive, improper, or unauthorized
           purchases.

RE&F Directorate
    The key positions and responsibilities of the WHS purchase card program as they
    relate to the Graphics Division begin with the cardholder and progress to the head
    of contracting.

    Cardholder. Cardholders may use their purchase cards for Government
    purchases that are within their single purchase limits, follow agencies policies and
    procedures, and are authorized by law or regulation. The cardholder certifies to
    the approving official that the charges on the cardholder statement are accurate
    and valid.

    Approving Official. The approving official is required to review all receipts
    attached to the cardholder’s statement prior to certifying the approving official
    monthly statement for payment. The RE&F Deputy Director was the responsible
    approving official for the Graphics Division Director beginning December 2001.
    The Program Coordinator also served as the approving official for the Graphics
    Division Director from at least May 1999 through November 2001. The Graphics
    Division Director was the supervisor and the approving official for the other
    11 cardholders in the Graphics Division.

    Agency Program Coordinator. The WHS Program Coordinator was responsible
    for overall management of the RE&F Government purchase card program
    including training of all cardholders and billing officials. The Program
    Coordinator is required to conduct annual program reviews as well as random
    reviews of individual cardholder purchases as part of the oversight responsibility.

    Head of Contracting. As the head of contracting, the RE&F Director issued the
    WHS standard operating procedure and administered the Government purchase
    card program within WHS. The head of contracting is responsible for issuing the
    delegation of authority to cardholders, approving officials, and the agency
    program coordinator. The head of contracting is also responsible for ensuring
    that the purchase card program policies and procedures and all applicable laws
    and regulations are followed.




                                         4
Graphics Division Cardholders
    The Graphics Division consisted of 13 staff members of which 12 were
    cardholders under the Government purchase card program. Originally
    26 purchase card transactions from July 2001 through December 2001 were
    selected for review. However based on questionable purchases, the review was
    expanded to 4,047 transactions from September 2000 through December 2001,
    totaling $6,064,453.

Implementation of Purchase Card Controls
    WHS had written policies and procedures; however, the basic procedures were
    not followed by the Graphics Division of WHS. The lack of implementation of
    the policies and procedures within the RE&F Directorate led to the complete
    breakdown of the purchase card program in the Graphics Division. Some of the
    basic controls over the purchase card program identified in the WHS Standard
    Operating Procedures and best practices in the GSA “Blueprint for Success:
    Purchase Card Oversight” were not implemented or enforced.

       •   The Graphics Division cardholders did not maintain required purchase
           logs with descriptions of the items purchased.

       •   Work orders or purchase requests from other DoD Components were not
           adequately documented with a signature or e-mail to verify the purchase
           request.

       •   Approving officials for the Graphics Division did not review monthly
           purchase card statements and invoices as required before certifying for
           payment.

       •   The Director, RE&F circumvented management controls by not requiring
           the separation of duties and allowing the Program Coordinator to also be
           the approving official for the Graphics Director.

       •   Account statements for the Graphics Division did not contain a certifying
           statement and signature block for the approving official as recommended
           by bank guidelines.

       •   The Program Coordinator did not perform the required annual program
           review or random reviews of cardholder accounts.

       •   The Program Coordinator issued purchase cards to Graphics Division
           personnel at the request of the supervisor without the required written
           justification.

       •   The Program Coordinator could not document training for most Graphics
           Division cardholders and did not require cardholders to take refresher
           training.

       •   A required periodic review by the RE&F Contracting Office was done
           only once in March 2000 and was not adequate since it focused solely on


                                        5
            existing contracts rather than on all transactions to verify that they were
            legitimate micro-purchases.

     DoD issued numerous memorandums and reports calling for improved internal
     review programs and appropriate corrective and disciplinary actions. As pointed
     out in the “Department of Defense Charge Card Task Force Final Report,”
     June 27, 2002, “Management’s enforcement of internal controls is an essential
     element to ensure accountability of purchase card use.”

Accountability
     WHS management did not properly establish the purchase card program and did
     not hold approving officials, the Program Coordinator, and the head of
     contracting accountable for not performing their duties and responsibilities in
     executing the WHS Graphics Division purchase card program. WHS
     management subsequently assigned the former Program Coordinator to a newly
     created internal review position. The $1.7 million of purchases by the Director of
     the Graphics Division (Graphics Director) with Infinite Network Solutions for
     fictitious services was paid erroneously because managers of the program did not
     provide review and oversight.

     Approving Official Review of Purchases. The approving officials for the
     $1.7 million in fraudulent purchases made by the Graphics Director did not
     perform the required review of the cardholders’ monthly statements before
     certifying the official statement for payment. The approving official, referred to
     as the billing official in the WHS Standard Operating Procedures, is the person
     responsible for reviewing cardholders’ monthly account statements, ensuring
     purchases are made in accordance with the FAR and agency regulations, and
     certifying those invoices for payment. The approving official is also responsible
     for enforcing the WHS Standard Operating Procedures and advising the Program
     Coordinator of misuse of the card and initiating disciplinary action as appropriate.

     The Graphics Director had at least two different approving officials while making
     fraudulent purchases. As of December 2001, the approving official was the
     Deputy Director for the RE&F Directorate; however, bank records indicated that
     the previous approving official was the Program Coordinator. Neither of the
     approving officials fulfilled the requirement to review monthly account
     statements and purchase documentation for the fictitious services from Infinite
     Network Solutions. According to the Department of Justice press release,
     November 6, 2002, the Graphics Director produced false invoices solely for the
     IG DoD audit. This means that, prior to the audit, these invoices did not exist and
     could not have been reviewed monthly by the approving official. Both approving
     officials failed to review the cardholder’s monthly statements and supporting
     documentation for over 3 years, from May 1999 through August 2002, and
     allowed the Graphics Director to make the $1.7 million in fraudulent purchases.

     Agency Program Coordinator Oversight. The Program Coordinator did not
     perform the required oversight for purchases made by the Graphics Director.
     According to the Program Coordinator, she only looked into the Graphics
     Division purchases after the IG DoD auditors discovered purchased items missing
     and expanded the review to include all Graphics Division cardholders. The
     Program Coordinator stated that once she started looking, she discovered


                                          6
suspicious purchases and “turned someone in to the Defense Protective Service.”
This discovery by the Program Coordinator of suspicious purchases occurred only
days before the IG DoD auditors officially referred the Graphics Director and
purchases from Infinite Network Solutions to the Defense Criminal Investigative
Service for investigation. The Program Coordinator had electronic access to
purchase card transactions and a variety of reports available from the bank that
should have been used to detect misuse and fraud. However, the proportionately
high dollar charges and the heavy use of one vendor, Infinite Network Solutions,
went unquestioned by the Program Coordinator, allowing the $1.7 million in
erroneous payments to go undetected for 3 years. For example, the bank’s
account activity report shows each transaction, merchant name, and dollar
amount. According to the GSA “Blueprint for Success: Purchase Card
Oversight,” the report is particularly useful for identifying suspicious merchants
and unusually high spending patterns. It is obvious that the Program Coordinator
did not use this report since bank records show a high percentage of monthly
charges, up to 86 percent in July 2001, going to Infinite Network Solutions for
what appeared to be computer services.

The Program Coordinator was subsequently assigned to a newly created internal
review position in the Real Estates and Facilities Directorate. Considering the
individual’s negligence in performing approving official and program coordinator
duties as well as a conflict of interest in performing current internal review duties,
we question assigning the former Program Coordinator to a position of increased
responsibility. The former Program Coordinator will now be responsible for
exposing problems that could have occurred when the Program Coordinator was
responsible for oversight of the purchase card program.

Head of Contracting Responsibility. Management’s responsibility to allocate
resources for oversight of the purchase card program was not a high priority in the
RE&F Directorate. The Program Coordinator was not a full-time position and at
one point, the Program Coordinator was allowed to concurrently hold the position
of approving official for the Graphics Director. As the Head of the Contracting
Activity, the RE&F Director was responsible for ensuring that the purchase card
program was properly established, and that policies and procedures and all
applicable laws and regulations were followed. A required periodic review by the
RE&F Contracting Office was done only once in March 2000 and was not
adequate since it focused solely on existing contracts rather than on all
transactions to verify that they were legitimate micro-purchases. The RE&F
Director was responsible for appointing the Program Coordinator, approving
officials and cardholders and setting approving official and cardholder credit
limits. However, the RE&F Director did not officially appoint individuals as
approving/certifying officials or as agency program coordinator, allowing the
duties of those positions to be taken lightly rather than following established
procedures and providing the necessary program oversight. In addition, the
RE&F Director was also responsible for holding those responsible for the
oversight accountable for performing their duties. Therefore, the RE&F Director
was also negligent in performing the duties related to oversight of the WHS
purchase card program.

A review should be initiated and appropriate administration action taken against
the approving official, the agency program coordinator and the head of
contracting for failure to provide adequate oversight to the purchase card
program.


                                      7
Abusive, Improper, and Unauthorized Purchases
    The lack of implementation of the WHS purchase card program controls in the
    RE&F Directorate allowed the cardholders in the Graphics Division to make an
    undetermined amount of abusive, improper, and unauthorized purchases. The
    Department of Defense Office of the Assistant Inspector General for Auditing
    officially referred suspicious purchases made by the Graphics Director and the
    Graphics Deputy Director to the Defense Criminal Investigative Service for
    investigation on August 9, 2002. Subsequently, the Graphics Director pled guilty
    to the theft of $1,711,000, was relieved of her Government position, and was
    convicted and sentenced in the United States District Court. The Deputy Director
    pled guilty to the theft of more than $30,000 in Government property from card
    purchases, and was convicted and sentenced in the United States District Court.
    For the full text of the Department of Justice press releases on the sentencing of
    the Graphics Director and Deputy Director, see Appendix C.
    During the 16 months from September 2000 through December 2001, cardholders
    in the Graphics Division also made at least $201,086 of questionable purchases
    ranging from excessive electronic equipment to novelties. In recent General
    Accounting Office testimony and reports on DoD purchase card problems, the
    three categories of questionable purchases have been defined as being abusive,
    improper, or unauthorized. Abusive purchases are described as being intended
    for Government use but not having a valid Government need or purchased at an
    excessive cost. The Graphics Division made at least $173,509 of abusive
    purchases. Improper purchases are for Government use but are not permitted by
    law, regulation, or DoD policy. The Graphics Division made at least $26,425 of
    improper purchases. Finally, unauthorized purchases are not for Government use
    or permitted by law and are considered potentially fraudulent when they appear to
    be for personal use. The Graphics Division made at least $1,152 of unauthorized
    purchases. For a more extensive discussion of purchases made by the Graphics
    Division cardholders that represent each of these categories, see Appendix D.

Conclusion
    The lack of implementation of management controls within the RE&F Directorate
    led to the complete breakdown of purchase card program controls in the Graphics
    Division. The fact that the erroneous payments of $1.7 million were made for
    over 3 years without any review or action by either the approving official or the
    former Program Coordinator clearly indicates that they were negligent in the
    performance of their duties. Furthermore, cardholders in the Graphics Division
    were also allowed to make abusive, improper, and unauthorized purchases of at
    least $201,086. See Appendix H for the summary of potential monetary benefits.

Management Comments on Finding A and Audit Response
    Summaries of management comments on finding A and our audit response are in
    Appendix G.




                                        8
Recommendations, Management Comments, and Audit
Response
    Renumbered Recommendations. Draft Recommendations A.1., A.2., and A.9.
    have been renumbered as Recommendations A.1.a., A.1.b., and A.1.c.;
    Recommendation A.3., A.4., A.5., and A.7. have been renumbered as
    Recommendations A.2.a., A.2.b., A.2.c., and A.2.d.; and Recommendations A.6.
    and A.8. have been renumbered as Recommendations A.3. and A.4., respectively.

    A.1. We recommend that the Director, Washington Headquarters Services
    initiate a review and take appropriate administrative actions to:

            a. Hold purchase card approving officials and the former Agency
    Program Coordinator accountable for failure to provide adequate oversight
    to the purchase card program.

          b. Hold cardholders that have made unauthorized or abusive
    purchases responsible for repayment to the Government as prescribed in the
    DoD Financial Management Regulation.

            c. Hold the Director, Real Estate and Facilities accountable for
    failing to properly establish the purchase card program and ensure the
    purchase card program policies and procedures and all applicable laws and
    regulations were followed.

    Director, Washington Headquarters Services Comments. The Director,
    Washington Headquarters Services concurred in part and is initiating a thorough
    investigation headed by a Senior Executive outside of Washington Headquarters
    Services to determine the facts surrounding this report and will take whatever
    actions are deemed to be appropriate. The Director, Washington Headquarters
    Services did not concur in any implication that the cardholders, approving
    officials, Agency Program Coordinator, or the Director, Real Estate and Facilities
    may not have performed their duties or reviews. However, the Director agreed to
    determine any additional culpability and potential liability, if any, beyond the
    criminal sanctions already meted out.

    Audit Response. We consider the comments to be responsive to the
    recommendations.

    A.2. We recommend that the Director, Washington Headquarters
    Services:

          a. Amend the Washington Headquarters Services Standard
    Operating Procedures to include direction regarding separation of duties for
    key positions of oversight in order to minimize the risk of fraud as
    recommended by the General Services Administration, “Blueprint For
    Success: Purchase Card Oversight.”

          b. Direct the Director, Real Estate and Facilities to hold cardholders,
    approving officials, and the Agency Program Coordinator accountable for
    implementing controls and performing their duties.



                                        9
       c. Designate the Program Coordinator as a full-time position and
allocate the resources necessary to accomplish all the required oversight and
annual reviews of the purchase card program.

      d. Enforce the Purchase Card Program Standard Operating
Procedures and hold cardholders, approving officials, and the Agency
Program Coordinator accountable for compliance with policies.

Director, Washington Headquarters Services Comments. The Director,
Washington Headquarters Services concurred in part and transferred the entire
purchase card program from the Real Estate and Facilities Directorate to the
Budget and Finance Directorate. The new directorate has already instituted
additional safeguards and oversight and implemented changes to provide
accountability. Furthermore, a full-time Program Manager has been appointed to
oversee the Program and will serve as the Primary Program Coordinator and will
be held accountable for compliance with all policies and procedures.

Audit Response. The comments are considered responsive and no additional
comments are required.

A.3. We recommend that the Director, Washington Headquarters Services
direct the Program Coordinator to accomplish all the required oversight and
annual reviews of the purchase card program.

Director, Washington Headquarters Services Comments. The Director,
Washington Headquarters Services concurred and has already directed the
Program Coordinator to accomplish all required oversight and annual reviews.

Audit Response. The comments are considered responsive and no additional
comments are required.

A.4. We recommend that the Director, Washington Headquarters Services
evaluate the decision to appoint the former Program Coordinator to a
position in Internal Review.

Director, Washington Headquarters Services Comments. The Director,
Washington Headquarters Services concurred in part and is initiating a thorough
investigation headed by a Senior Executive outside of Washington Headquarters
Services to determine the facts surrounding this report and will take whatever
actions are deemed to be appropriate. Prior to reviewing the results, the Director,
Washington Headquarters Services did not concur in any implication that the
decision to appoint the former Agency Program Coordinator to a position in
Internal Review was in any way inappropriate.

Audit Response. The comments are responsive and no additional comments are
required.




                                    10
           B. Property Accountability
           Property costing at least $50,000 purchased by the Graphics Division
           cardholders with the Government purchase card was missing from
           inventory records and could not be located. This occurred because the
           Graphics Division cardholders, approving officials, inventory custodian,
           and the Support Services Division accountable property officer did not
           consistently follow guidelines for receiving and recording property
           purchased with the Government purchase card. As a result, the Graphics
           Division cardholders purchased items of an undeterminable amount that
           were subject to being misplaced, lost, or stolen.

Unrecorded Accountable Property
    At least $50,129 of property, including five laptop computers, three cameras, nine
    video players, and other items purchased by Graphics Division cardholders could
    not be located. During the audit, a physical inventory was conducted of camera
    equipment, portable video equipment, and laptop computers located in the
    Graphics Division in the Pentagon to determine if property purchased by
    Graphics Division cardholders was properly recorded. The list was compared to
    inventory records compiled by the Information Technology Division for
    computers and equipment and the Support Services Division for cameras and
    audio/video equipment, both under the RE&F Directorate. Listed below are
    examples of some of the items missing from inventory records purchased for
    $30,329. Other items purchased for $19,800 were also missing from inventory.
    As of August 9, 2002, the items were still unrecorded and missing from the
    Graphics Division. See Appendix E for a list of the unrecorded and missing
    properties.

    Laptop Computers. At least five laptop computers purchased for $21,584 by
    one cardholder were never recorded on the Government inventory records and
    could not be located. The serial numbers obtained from the purchase card
    receipts were compared to the Information Technology inventory records of
    computer equipment. The serial numbers could not be located on the inventory.
    Shipping documents indicated that at least one of the laptop computers purchased
    was shipped directly to the cardholder’s home address.

    Cameras. At least three cameras purchased for $1,580 by three separate
    cardholders were not recorded on inventory records and could not be located.
    The purchase receipts for two of the cameras included a serial number for the
    cameras. The inventory records were checked and neither serial number could be
    located. The third receipt did not include a serial number; however, the inventory
    records did not contain a camera that matched the model number of the camera
    purchased.

    Video Players. At least nine digital video players purchased for $7,165 could not
    be located on the Support Services Division inventory of equipment. Repeated
    attempts were made to locate the video players in various Pentagon displays and
    storage locations with no success.




                                        11
Accountable Property Responsibilities
     Cardholders. The Graphics Division cardholders did not always present assets
     to the inventory custodian for recording on inventory records when purchases
     were made. Graphics Division cardholders were provided a copy of the WHS
     Purchase Card Program Standard Operating Procedures (Operating Procedures)
     during initial training prior to receiving the purchase card. The Operating
     Procedures briefly state that all accountable property items purchased with the
     card should be reported to the property control officer for inclusion in the
     inventory system. However, no clear guidance was provided to cardholders on
     the proper procedures for recording the items purchased. In fact, the cardholders
     were confused as to whom property should be reported when purchased because
     the WHS has two inventory systems, one for information technology items and
     one for non-information technology items.

     Approving Official. The Graphics Division approving official failed to
     adequately review monthly cardholder statements and did not provide any
     documentation to confirm that all accountable property purchased was recorded
     on inventory records. The Director, Defense Procurement’s memorandum on
     Government Purchase Card Internal Control, August 13, 2001, addressed DoD
     controls on the purchase card program. The memorandum states that certain
     controls must be followed in order to ensure proper oversight of the DoD
     purchase card program at all levels. Some of the suggested controls include:
     billing officials/approving officials must verify that the cardholder was authorized
     to buy items on the monthly statement, the items have been received by the
     Government, and all pilferable items and other qualifying items have been
     properly recorded on Government property records. DoD Instruction 5000.64
     defines pilferable items as items “that have a ready resale value or application to
     personal possession and that are, therefore, especially subject to theft.” The
     memorandum also states that the same person should not buy and receive the
     item. There was evidence that most property purchased by cardholders was
     received by the cardholder or, in one case, shipped directly to the cardholder’s
     home address.

     Property Custodian. According to the property custodian, the Graphics Division
     did not have a systematic method of capturing accountable property purchased.
     Therefore, inventory records did not reflect all Government assets obtained with
     the purchase card. When made aware of items purchased, the property custodian
     would notify either the Support Services or Information Technology Divisions.
     The Support Services Division maintains inventory records for all accountable
     property except computers and related equipment, which are controlled by the
     Information Technology Division.

     Accountable Property Officer Responsibilities. The Support Services Division
     did not establish a system for the Graphics property custodian to capture all
     accountable property as it was purchased, or provide any training to the property
     custodian related to inventory tracking. Also, there was no indication from the
     inventory list provided by the Support Services Division that an annual inventory
     was actually conducted. The Support Services Division accountable property
     officer (property officer) is responsible for maintaining inventory records for
     Office of the Secretary of Defense (OSD) property to include the name of the
     property, model, serial number, stock number, location of the property, name of
     the activity, and other descriptive features. The property officer is also required


                                          12
    to conduct a scheduled inventory at least annually and supervise and manage all
    property transactions and interface regularly with the property custodian. The
    Support Services Division provided a certified inventory listing of Graphics
    Division property, excluding computers, as of June 17, 2002. The list did not
    include the date of the last physical inventory conducted in the Graphics Division
    and did not include several items purchased by the Graphics Division cardholders
    during this review period.

    Property Management System. The inventory records compiled by the Support
    Services Division property officer did not include at least three cameras and nine
    digital video players purchased by the Graphics Division cardholders. The OSD
    Administrative Instruction 94 (AI-94), “Personal Property Management and
    Accountability,” November 6, 1996, states that the property management and
    accountability function is the responsibility of the OSD property officer and the
    Property Management Branch in the Support Services Division of the RE&F
    Directorate. AI-94 directs that equipment, furniture, furnishings, and expendable
    or nonexpendable supplies be delivered to, received, and receipted by the Support
    Services Division before distribution to an activity. AI-94 describes
    nonexpendable property as personal property that retains its original identity and
    characteristics, has a useful life of more than 1 year, and has an acquisition cost of
    $500 or more. Additionally, the memorandum issued by the Director, Defense
    Procurement on August 13, 2001, requires all pilferable items be recorded on
    Government property records. The heads of each activity have the responsibility
    to appoint a property custodian in writing.

    Automated Information Resource Management. At least five laptop
    computers purchased by one cardholder in the Graphics Division were not
    recorded in the inventory records. OSD Administrative Instruction 56,
    August 20, 1991, assigns responsibility to the RE&F Director to report all
    acquired and excess computer and telecommunications resources for inclusion in
    the central inventory system. Inventory records for computers and related
    equipment were compiled and maintained by the Information Technology
    Division within the RE&F Directorate. The Graphics Division had a waiver from
    the Director for Information Operations and Reports to purchase graphics-specific
    computers and software. This waiver did not exempt the Graphics Division from
    including computer equipment it purchased in the central inventory system.
    However, the Graphics Division did not have procedures to assure that computer
    equipment was reported to the Information Technology Division when it was
    purchased. According to the Director, Information Technology Division,
    although he maintained the inventory, he felt uncomfortable being responsible for
    equipment over which he had no control. He also felt that the Graphics Division
    should be held responsible for control over the items it purchased.

Conclusion
    WHS did not have a valid inventory record of accountable property purchased by
    the Graphics Division with the purchase card and at least $50,129 worth of
    Government property could not be located. The Government cannot determine
    the number and value of items misplaced, lost, or stolen because Graphics
    Division cardholders, approving officials, inventory custodian, and the Support
    Services Division accountable property officer did not follow guidelines for
    receiving and recording property purchased with the purchase card.


                                         13
Management Comments on Finding B and Audit Response
    Summaries of management comments on finding B and our audit response are in
    Appendix G.

Recommendations, Management Comments, and Audit
Response
    B.1. We recommend that the Director, Washington Headquarters
    Services, as head of Administration and Management for the Office of the
    Secretary of Defense, amend Administrative Instruction 94 to include
    pilferable or sensitive items, as described in DoD Instruction 5000.64 and the
    Director, Defense Procurement August 13, 2001, memorandum, as
    accountable property.

    Director, Washington Headquarters Services Comments. Responding as the
    head of Administration and Management for the Office of the Secretary of
    Defense, the Director, Washington Headquarters Services concurred in part and is
    initiating a thorough investigation of the facts surrounding this report. The
    investigator will be asked to make recommendations concerning possible
    amendment(s) to Administrative Instruction 94.

    Audit Response. The comments are responsive and no additional comments are
    required.

    B.2. We recommend that the Director, Real Estate and Facilities,
    Washington Headquarters Services:

          a. Ensure that the Support Services Division and the Accountable
    Property Officer:

                 (1) Establish and maintain a system for capturing all
    accountable property purchased with the Government purchase card in the
    Graphics and Presentations Division.

                  (2) Provide training to the Graphics and Presentations
    Division inventory custodian on maintaining the inventory management
    records.

                  (3) Comply with requirements for a scheduled inventory at
    least annually, and conduct unannounced spot checks of property and
    inventory management records, and document the results.

            b. Rescind the Graphics and Presentations Division waiver to
    purchase graphics-specific information technology equipment and support,
    and return the responsibility for purchasing, support, and inventory control
    to the Information Technology Division.

          c. Ensure that the Graphics and Presentations Division establishes
    procedures to properly inventory and safeguard items purchased.



                                       14
       d. Conduct a complete review of invoices/receipts for purchases
made with the purchase cards from May 1999 through August 2002 to
identify all pilferable items and determine the full extent of missing property,
investigate the disposition of all missing property, and take required
administrative actions as needed.

       e. Oversee a wall-to-wall inventory in the Graphics and
Presentations Division to determine the full extent of missing property and
investigate all missing property as required by Administrative
Instruction 94, “Personal Property Management and Accountability.”

Director, Washington Headquarters Services Comments. The Director,
Washington Headquarters Services concurred or partially concurred with all of
Recommendation B.2. The Director concurred with establishing a system for
capturing all accountable property, and providing training to inventory custodians
and complying with requirements for scheduled annual inventory. The Director
stated that the authority to purchase information technology equipment was
rescinded and the administration of technology equipment was returned to the
Information Technology Division, a supply technician was assigned to the
Graphics and Presentations Division, and inventory controls are being enhanced
and implemented. The Director partially concurred and is initiating a thorough
investigation of the facts pertaining to this report, and will take whatever actions
are deemed to be appropriate as a result of that investigation. The Director also
concurred to oversee a wall-to-wall inventory in the Graphics and Presentations
Division to determine the full extent of missing property and investigate all
missing property.

Audit Response. The comments are considered responsive and no additional
comments are required.




                                     15
           C. Contracting Methods
           Washington Headquarters Services cardholders in the Graphics Division
           used purchase cards to circumvent the simplified acquisition requirements
           in Federal Acquisition Regulation (FAR) Part 13. The cardholders were
           effectively creating non-competitive procurements by using split
           purchases and not rotating purchases among vendors. This occurred
           because the approving officials and the Program Coordinator did not
           provide adequate oversight of cardholders’ activities and the Contracting
           Office did not perform periodic reviews of all Graphics Division
           purchases. As a result, the Graphics Division paid one vendor $36,000 to
           purchase an item that should cost $3,000 and may not have received the
           best value from other vendors for at least $511,500 of supplies and
           services purchased.

Violation of FAR Requirements
    WHS cardholders in the Graphics Division circumvented the simplified
    acquisition requirements for competition required in FAR Part 13 by not using
    appropriate contracting methods. Simplified acquisition procedures are required
    when the purchase exceeds the $2,500 micro-purchase threshold. These non-
    compliances involved split purchases and lack of vendor rotations that resulted in
    no price competition. For purchases above the $2,500 limit, the purchase card
    may be used as a method of payment for deliverables under another form of
    contracting that adheres to the requirements of the Competition in Contracting
    Act and the FAR.

    Split Purchases. The Graphics Division cardholders split the purchase of items
    costing more than $2,500 into multiple transactions. Of the 4,047 transactions
    that occurred between September 2000 through December 2001, 227 transactions
    were determined to be part of a split purchase. Splitting is the “intentional”
    breaking down of a known requirement to stay within a threshold or to avoid
    having to send the requirement to the contracting officer. FAR 13.003 prohibits
    splitting purchase requirements into more than one transaction to avoid the need
    to obtain competitive bids. FAR 13.104 also states that, when using simplified
    acquisition procedures over $2,500, at least three sources should be contacted to
    promote competition to the maximum extent practicable. The Graphics Division
    cardholders violated FAR provisions when they divided single acquisitions into
    multiple purchases to avoid these requirements. The split purchases ranged from
    large purchases with multiple transactions to the more common split between two
    transactions.

            American Flag Decals. An egregious example of the effect of a split
    purchase occurred when a cardholder divided the purchase of 9,000 American
    flag decals, following September 11, 2001, into 18 separate purchase card
    transactions. Each transaction was for 500 decals at $2,000 with most invoices
    dated September 21, 2001. Impact Communication Strategies charged $4.00 each
    with rush delivery for a total of $36,000. During the audit, we contacted another
    vendor on the Graphics Division contractor list for a price quote. The quote for
    10,000 of the same small American flag decal was $.30 each for a total of $3,000
    with 1-day expedited service. We also determined that it is standard for decals to
    be printed at one time, not 500 a day, and 10,000 decals would take only a few


                                        16
hours to print. Splitting the purchase, instead of following simplified acquisition
procedures to contact three vendors for quotes when costs were over the $2,500
micro-purchase threshold, caused the Department to overpay by $33,000 or
1,333 percent. A similar flag decal was purchased at a local drug store for
$.29 each. The following is the approximate size of the flag decal purchased from
Impact Communication Strategies for $4.00 each.




Approximate size of the flag decal purchased from a local drug store for
$.29 each.




        Interactive CD-ROM Project. In another example, the Graphics
Director, as the approving official, directed a cardholder to make 22 individual
purchases from Streamline Design and Development totaling $50,668 to develop
an interactive historical CD-ROM (compact disc read-only memory) of previous
Secretaries of Defense. Clearly, this project exceeded the purchase card limit
from the beginning and should have been competed under some form of contract
to obtain the best value for the Government. The cardholder indicated that the


                                    17
    approving official determined the scope of work for the entire project prior to
    directing the purchases and determined the tasking for each of the 22 purchases.

            Overhead Projectors. An example of a smaller split purchase appeared
    to occur when two cardholders made separate purchases from National
    Audiovisual Supply on the same day for identical overhead projectors for the total
    cost of $4,862. Both purchases resulted in sequential vendor invoices and were
    shipped to the same person. Therefore the purchases would stay within the
    $2,500 purchase card limit and subsequently avoided obtaining the price
    competition required with other contracting methods.

    Vendor Rotation. The Graphics Division cardholders effectively established
    sole-source procurement by not rotating vendors or not establishing a competed
    contract for supplies and services. Purchase cardholders are required to rotate
    purchases among a list of qualified vendors to obtain price competition. The
    Graphics Division provided a list of qualified vendors; however, some were used
    almost exclusively for routine purchases, creating a form of sole-source
    procurement. The solicitation of quotes or offers from a reasonable number of
    sources or documented sole-source justification is required for any purchase over
    $2,500. Where rotating vendors is not appropriate for routine purchases of like
    items, the preferred methods would be blanket purchase agreements under
    FAR 13.303 or indefinite delivery contracts under FAR Subpart 16.5. These
    methods would assure that the Government obtains the best value and cardholders
    would still use their purchase cards for payments.

            Framing Services and Supplies. The Graphics Division cardholders
    collectively made 478 purchases, totaling $343,931, from All Around Art during
    the 16-month period under review. All of the purchases were for similar framing
    services and supplies such as the matting and framing of pictures and certificates
    for the Office of the Secretary of Defense, core boards, matte boards, gator
    boards, and various other related framing items. Out of 30 vendors on the
    Graphics Division vendor list, All Around Art was the only vendor listed
    specifically for framing. With at least 10 vendors that provide framing services in
    the Pentagon area, these purchases should have been rotated among multiple
    vendors or paid for individually with the purchase card under a contract that was
    issued with appropriate competition.

             Poster Printing. The Graphics Division cardholders made 103 individual
    purchases from Visual Access totaling $112,044 for poster set-up, printing, and
    laminating. We reviewed the Graphics Division’s vendor list and determined that
    11 other vendors provided the same type of services as Visual Access. By using
    only one vendor and not establishing a blanket purchase agreement or indefinite
    delivery contract, the cardholders could not assure that the Government received a
    fair price or best value for these routine purchases.

Oversight and Reviews
    The Graphics Division cardholders received little or no oversight to prevent the
    inappropriate use of their purchase cards. According to the WHS Operating
    Procedures, there were to be two levels of oversight and two levels of review to
    assure that purchases adhered to the provisions of the FAR. Oversight by the
    approving official and then the Program Coordinator was intended to prevent the


                                        18
use of split purchases and lack of vendor rotation. A periodic review, to be
conducted by the Contracting Office, was intended to evaluate the purchase card
program effectiveness and compliance with prescribed policies and procedures.
Additionally, the Resources Management Office within the RE&F Directorate,
where the Program Coordinator is located, was to conduct random inspections of
purchase card accounts to ensure compliance with prescribed policies and
procedures.

Approving Official. The Graphics Director/approving official did not provide
adequate oversight and leadership on administering the purchase card program for
the Graphics Division. The approving official directed a cardholder to split the
purchase for 1 project into 22 separate transactions. As a warranted contracting
officer, the approving official was obligated to practice and enforce proper
procurement practices such as avoiding split purchases, rotating vendors, and
promoting competition. FAR 13.104 states that the contracting officer must
promote competition to the maximum extent practicable to obtain supplies and
services from the source whose offer is the most advantageous to the
Government.

Agency Program Coordinator/Resources Management Office Review. The
Program Coordinator did not perform any annual purchase card program reviews
as oversight to detect unusual spending patterns. The Program Coordinator was
responsible for the overall management, oversight, and administration of the
purchase card program. One of the key items pointed out in the GSA booklet for
Program Coordinators, “Blueprint for Success: Purchase Card Oversight,” is the
use of bank activity reports and annual reviews to detect, among other things,
unusually high spending patterns and excessive use of one merchant. Another
item specifically listed on the sample annual review check list is whether the
cardholder has split requirements to stay under the purchase limit. Coordinators
are told to look for repeated orders for the same goods and services during a short
time period. The WHS Program Coordinator was not effective in identifying and
deterring split transactions and vendor preference in the Graphics Division. The
Program Coordinator noted the high use of one or two vendors by several
cardholders but felt that the overall use of vendors appeared normal and took no
further action.

RE&F Contracting Office Review. The Contracting Office did not understand
that it was required by the WHS Operating Procedures to perform periodic
reviews of the entire purchase card program to evaluate the effectiveness and
compliance with prescribed policies and procedures. The Contracting Office
conducted a self-inspection from March 20 to March 24, 2000, of the contractual
documents issued and administered by the Graphics Division. The self-inspection
was ineffective in determining whether the Graphics Division cardholders were
using their purchase cards in compliance with the FAR because the review was
limited to purchases over $2,500. The report states that the purchases made under
simplified acquisition procedures by the Graphics Director, a warranted
contracting officer, were the focus of their review. The report states that the
review of transactions below the $2,500 limit was cursory in nature since
cardholders making purchases at this dollar amount are under the oversight of the
Resources Management Office. Apparently, the Contracting Office was not
aware of its responsibilities for the purchase card program as assigned in the
WHS Operating Procedures and therefore did not perform its duties.



                                    19
Conclusion
    Graphics Division cardholders violated provisions of the FAR and effectively
    created non-competitive contracts for supplies and services by using split
    purchases and not rotating purchases among vendors. As a result, the
    Government may not have received the best value for at least $511,500 of goods
    and services and in one instance overpaid by at least $33,000 for American flag
    decals.

Management Comments on Finding C and Audit Response
    Summaries of management comments on finding C and our audit response are in
    Appendix G.

Recommendations, Management Comments, and Audit
Response
    C.     We recommend that the Director, Washington Headquarters
    Services:

           1. Ensure the Director, Real Estate and Facilities requires the Real
    Estate and Facilities Contracting Office to perform periodic reviews of all
    purchase card transactions to determine whether cardholders are using
    appropriate contracting methods to obtain routine supplies and services.

            2. Ensure the Director, Real Estate and Facilities requires the Real
    Estate and Facilities Contracting Office to include micro-purchases in its
    self-inspection as part of its annual management control program review.

           3. Ensure the Director, Real Estate and Facilities requires the
    Program Coordinator to follow the Washington Headquarters Services
    Standard Operating Procedures to include periodic reviews and oversight,
    and retraining with emphasis on stopping the use of split purchases and
    vendor preference.
           4. Ensure the Director, Real Estate and Facilities requires the
    cardholders to follow the Federal Acquisition Regulation, stop split
    purchases, and rotate purchases among vendors when using the purchase
    cards.

    Director, Washington Headquarters Services Comments. The Director,
    Washington Headquarters Services concurred with Recommendation C.2. and
    concurred in part to Recommendations C.1., C.3., and C.4., and has transferred
    the purchase card program from the Real Estates and Facilities Directorate to the
    Budget and Finance Directorate. The Director, Washington Headquarters
    Services stated that the full-time Program Coordinator is a warranted contracting
    officer and will perform the required reviews and make determinations and
    recommendations concerning proper contracting methods for micro-purchases
    using the purchase card. Additionally, the Director of the Contracting Office will
    perform reviews as required and include micro-purchases in its annual inspection


                                        20
and management control program review. The Director also stated that the
Program Coordinator will follow the Washington Headquarters Services Standard
Operating Procedures and will perform required periodic reviews, oversight, and
retraining; and will assure that cardholders follow the Federal Acquisition
Regulation, stop split purchases, and rotate purchases among vendors when using
the purchase cards.

Audit Response. The comments are responsive and no additional comments are
required.




                                  21
Appendix A. Scope and Methodology
   We initially reviewed two DoD Civilian Personnel Management Service (CPMS)
   cardholders and six WHS cardholders identified through data mining techniques.
   The data mining focused on micro-purchase threshold cardholders and flagged
   84 transactions by the 8 cardholders from July 2001 through December 2001, of
   which 26 flagged transactions were from 3 cardholders at the WHS Graphics
   Division. For each cardholder, additional transactions were reviewed to obtain
   more confidence in the results. Nine additional cardholders, including the
   Graphics Director, were reviewed after additional questionable purchases were
   identified. The table below reflects a summary of all transactions flagged and
   reviewed. For results on the flagged transactions, see Appendix F.

                                  Purchase Card Transactions

                                               Transactions            Dollar Value
        DoD Field Activities             Flagged         Reviewed       Reviewed
          CPMS                                 5               5        $      169
          WHS
             Alterations                      51                 303      411,109
             USD* (Policy)                     1                   1          706
             Navy Annex                        1                 437      427,306
             Graphics & Presentations         26               4,047    6,064,453
                    Total                     84               4,793   $6,903,743
   *Under Secretary of Defense

   To accomplish the audit objectives, we interviewed key management personnel,
   approving officials, cardholders, contracting personnel, and property
   accountability personnel. We reviewed available purchase logs, billing
   statements and supporting documentation, delegation of authority letters,
   inventory records, and training records. We performed a physical inventory of
   pilferable items identified during the review of purchase receipts in the WHS
   Graphics Division.

   We expanded our coverage at the WHS Graphics Division based on excessive use
   of one or two vendors, potential split purchases, and purchase card items missing
   from inventory. From the 12 cardholders’ records, we identified
   4,047 transactions valued at over $6 million processed between September 2000
   and December 2001. We reviewed all of these purchase card transactions.

   We referred two cardholders and various vendors with suspicious purchase card
   activity to the Defense Criminal Investigative Service for further investigation on
   August 9, 2002. We were unable to complete some cardholder interviews and
   other planned audit steps because of the investigation. The limitations on
   obtaining additional information did not adversely affect the results of the audit.
   The audit report was delayed until all criminal activity was investigated by the
   Defense Criminal Investigative Service and prosecuted by the U.S. Department of
   Justice.

   We performed this audit from May 2002 through April 2003 in accordance with
   generally accepted government auditing standards.



                                         22
    Use of Computer-Processed Data. We relied on computer-processed data
    provided by the Defense Manpower Data Center to achieve the audit objectives.
    Although we did not perform a formal reliability assessment of the computer-
    processed data, we did compare cardholder monthly purchase card statements to
    the computer-processed data and did not find errors that would preclude use of
    the data to meet the audit objectives or that would change the conclusions in this
    report. The computer-processed data originally provided by the Defense
    Manpower Data Center did not include any of the transactions of the additional
    nine cardholders. However, because we did a 100 percent review of the Graphics
    Division purchases for the entire period, the reliability of the computer-processed
    data was not relevant.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage on
    the DoD high-risk area to improve processes and controls to reduce contract risk.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of WHS controls over its purchase card program. Specifically, we
    reviewed the controls and oversight of the program in the Graphics Division by
    examining purchase card transactions, determining the controls for the purchases,
    and assessing the role of the approving official and the Program Coordinator. We
    also reviewed management’s self-evaluation applicable to those controls.

    The Defense Human Resources Activity statement of assurance and its purchase
    card program was an assessable unit with no deficiencies reported. We did not
    specifically review purchase card management controls for CPMS (a division of
    the Defense Human Resources Activity), because there was no indication of
    problems with the flagged purchase card transactions reviewed.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the WHS purchase card program as defined by DoD
    Instruction 5010.40. WHS, RE&F Directorate management controls for the
    purchase card program were not adequate to ensure that purchases made at the
    Graphics Division were mission related, properly safeguarded, and provided the
    best value to the Government. Purchases reviewed did not always support
    mission needs nor were they properly documented. The purchases were not
    appropriately accounted for on property records and in some cases, the property
    was missing. In many cases, purchases were split into multiple transactions to
    avoid exceeding the micro-purchase threshold of $2,500. Many purchases were
    made from the same vendors for similar items that should have been rotated or an
    alternative purchasing method used that would be more advantageous to DoD.
    The approving officials did not properly review purchases adequately before
    certifying for payments. All recommendations, if implemented, will improve the
    management of the WHS purchase card program and could result in monetary


                                        23
benefit of an undeterminable amount. The monetary benefit is undeterminable
because we cannot predict the savings from deterring fraud, waste, and abuse in
the purchase card program. A copy of the report will be provided to the senior
official responsible for management controls in the Washington Headquarters
Services Office.

Adequacy of Management’s Self-Evaluation. WHS, RE&F Directorate
identified contract and procurement as an assessable unit. However, in its
evaluation of contracting in the Graphics Division, RE&F officials did not
identify the specific management control weaknesses identified by the audit
because the evaluation did not cover the entire purchase card program in their
ongoing self-inspection program.




                                    24
Appendix B. Prior Coverage

General Accounting Office (GAO)
GAO Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air
Force Vulnerable to Fraud, Waste, and Abuse,” December 20, 2002

GAO Testimony No. GAO-03-154T, “Purchase Cards: Navy Vulnerable to Fraud and
Abuse but Is Taking Action to Resolve Control Weaknesses,” October 8, 2002

GAO Report No. GAO-02-1041, “Purchase Cards: Navy Is Vulnerable to Fraud and
Abuse but Is Taking Action to Resolve Control Weaknesses,” September 27, 2002

GAO Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
Vulnerable to Fraud, Waste, and Abuse,” June 27, 2002

GAO Testimony No. GAO-02-676T, “Government Purchase Cards: Control Weaknesses
Expose Agencies to Fraud and Abuse,” May 1, 2002

GAO Report No. GAO-02-406, “Education Financial Management: Weak Internal
Controls Led to Instances of Fraud and Other Improper Payments,” March 28, 2002

GAO Report No. GAO-02-32, “Purchase Cards: Control Weaknesses Leave Two Navy
Units Vulnerable to Fraud and Abuse,” November 30, 2001

GAO Testimony No. GAO-01-995T, “Purchase Cards: Control Weaknesses Leave Two
Navy Units Vulnerable to Fraud and Abuse,” July 30, 2001

IG DoD
IG DoD Report No. D-2003-109, “Summary Report on the Joint Review of Selected
DoD Purchase Card Transactions,” June 27, 2003
IG DoD Report No. D-2002-075, “Controls Over the DoD Purchase Card Program,”
March 29, 2002

IG DoD Report No. D-2002-029, “DoD Purchase Card Program Audit Coverage,”
December 27, 2001

Army
Army Audit Agency Report No. A-2003-0072-FFG, “Government Purchase Card
Program: U.S. Army Reserve Readiness and Training Center Fort McCoy, Wisconsin,”
December 27, 2002

Army Audit Agency Report No. A-2003-0026-IMU, “Funding Execution: Task Force
Sinai,” November 14, 2002




                                         25
Army Audit Agency Report No. A-2003-0054-FFG, “Review of The Army Management
Control Process (Fiscal Year 2002): An Assessment for the Secretary of The Army,”
November 13, 2002

Navy
Naval Audit Service Report No. N2002-0070, “Naval Facilities Engineering Command
Commercial Purchase Card Program,” August 14, 2002

Naval Audit Service Report No. N2002-0051, “Naval Sea Systems Command
Commercial Purchase Card Program,” May 29, 2002

Naval Audit Service Report No. N2002-0032, “Management of Purchase Cards at Naval
Support Activity Washington,” February 25, 2002

Naval Audit Service Report No. N2002-0023, “Management of the Purchase Card
Program at Public Works Center, San Diego, CA,” January 10, 2002

Air Force
Air Force Audit Agency Report No. F2002-0006-C06400, “Air Force Purchase Card
Program,” August 6, 2002




                                        26
Appendix C. Department of Justice Press
            Releases for Sentencing




                      27
28
29
30
31
32
Appendix D. Abusive, Improper, and
            Unauthorized Purchases
    In addition to the $1.7 million in fraudulent purchases made by the Graphics
    Director, cardholders in the Graphics Division made other questionable purchases
    ranging from excessive computer equipment to novelties for personal use. Recent
    General Accounting Office testimony before Congress and reports on DoD
    purchase cards problems defined the three basic types of questionable purchases
    as being abusive, improper, or unauthorized.

Abusive Purchases
    Abusive purchases are defined as being intended for Government use but without
    having a valid Government need or purchased at an excessive cost. Based on
    auditors’ analysis, the cardholders in the Graphics Division made at least
    162 purchases valued at $173,509 that had no apparent Government need or were
    at an excessive cost. Examples are as follows.

    Portable Digital Video. Cardholders
    purchased 11 portable DVD (digital video
    disc) players, with 5.5-inch to 9-inch screens,
    in addition to several other regular
    DVD players. The portable DVD players,
    costing as high as $1,580, were purchased for
    use in the video kiosk displays throughout
    the Pentagon. The reason given for using
    smaller and more expensive DVD players
    was that the kiosk space was limited. A
    kiosk display was physically inspected
    during the audit, and a small portable
    DVD player, hidden from view, was
    connected to a large liquid crystal display screen. The space was large enough to
    accommodate a regular DVD player. When asked, the production manager
    agreed that probably only three or four DVD players would be operating at one
    time. As with many items purchased by Graphics’ cardholders, a bona fide need
    for 1 or 2 players may exist, but the purchase of 11 portable DVD players was
    both excessive and an abuse of Government resources.

    External CD Writers. On November 6, 2000, the Graphics Division purchased a
    professional Fostex CR-300 CD (compact disc) writer for $877. On
    March 21, 2001, the Graphics Division purchased five external CD writers
    totaling $1,942. The CD writers were not listed on any inventory although they
    were pilferable items. However, the Information Technology Division inventory
    list shows 20 other CD writers in the Graphics Division; 9 at workstations, 6 in
    the server room, and 5 more unopened in a storeroom. The number of CD writers
    appeared to be excessive based on the size of the staff and are considered abusive
    purchases.




                                        33
Cameras. Cardholders purchased an
excessive number of cameras. According to
the RE&F customer service handbook and
Web site, the support services provided by
the Graphics Division did not include
photography. Although 1 or 2 cameras may
have been justified for the 13-person division
to occasionally record events for graphic
display, the number and variety of cameras
purchased by the Graphics Division showed
an abusive use of funds. Additional cameras
were purchased with 39 various cameras
already listed in their inventory. Despite the
purchase of a Kodak professional camera for
$19,369 plus $295 in accessories on
October 4, 2001, the cardholder purchased another camera on October 15, 2001,
for $1,951 plus $16,127 in accessories. Other cameras purchased were a $1,099
Canon Camcorder, and a $1,799 Mamiya with a $79.95 extended warranty.

Novelties. The Graphics Division spent $57,000 on the purchase of a variety of
customer service novelty items including stainless steel coffee mugs, key chains,
and tote bags imprinted with the WHS or RE&F logos from September 2000
through December 2001. According to the cardholder that made the purchases,
these were given away as promotional items. There was no valid Government
need for the Graphics Division to purchase novelties to give away to other DoD
Components to promote the WHS mission and its services.

Laptop Computers. The Graphics Division spent $21,584 on the purchase of
five laptop computers that could not be located in addition to five laptop
computers already on inventory records. According to the Graphics Director that
made the purchases, the laptops were used occasionally for training at home.
There was no valid Government need for the Graphics Division to purchase 5
additional laptop computers mainly for at-home training for 11 of 13 employees.

Power Tools. Several items were purchased and received by the cardholder
reportedly for use in constructing and repairing displays throughout the Pentagon.
However, we could not justify the need for these items or verify that they were
ever used for their intended purpose since the construction of displays is usually
contracted out. Also, WHS has an “Alterations Working Group” facility
equipped with an elaborate shop to provide minor construction support.

       Portable Table Saw. A sales receipt from Home Depot on
October 1, 2000, indicated that the Graphics Division purchased a portable table
saw for $497. The table saw was not recorded on the inventory records, and the
inventory custodian was not aware of its existence. The table saw was later
located in a storage room that was inaccessible to the inventory custodian. The
cardholder claimed that the saw was used occasionally to create and repair
displays. We interviewed several Graphics Division staff to determine if the table
saw was ever used. The staff members said that they had not seen the table saw
being used. The production manager responsible for creating and repairing the
displays stated that projects are usually contracted out if they need to be
constructed.



                                    34
           2.4 Cordless Hammer Drill. A sales receipt from Home Depot on
    October 1, 2000, indicated that the Graphics Division purchased a 2.4 cordless
    hammer drill for $299. The drill was not recorded on the inventory records and it
    took over 5 weeks for the cardholder to physically produce the drill.

            12-inch Sliding Compound Saw. A sales receipt from Home Depot on
    November 5, 2000, indicated that the Graphics Division purchased a 12-inch
    Sliding Compound Saw for $577 along with a DeWalt workstation for $279. The
    sliding compound saw and the workstation were not recorded on the inventory
    records and the inventory custodian was not aware of their existence. The sliding
    compound saw and the workstation were later located in a storage room that was
    inaccessible to the inventory custodian.

Improper Purchases
    Improper purchases are for Government use but are not permitted by law,
    regulation, or DoD policy. The cardholders in the Graphics Division made at
    least 27 purchases valued at about $26,425 that were not permitted by law,
    regulation, or DoD policy. Examples of improper purchases made by the
    Graphics Division cardholders included furniture and computer equipment not
    covered by a waiver.

    Furniture. The Graphics Division purchased computer workstations, wall
    cabinets, storage cabinets, and two lecterns. The items were classified as
    furniture and therefore were not permitted to be purchased with a Government
    purchase card without proper waivers. In a couple of instances, the Graphics
    Division cardholder did not provide copies of the invoices for the purchases;
    therefore, there was no audit trail for where the furniture was shipped.

    Computer Equipment. The Graphics Division received a waiver in July 1996 to
    purchase graphics-unique computer equipment. This referred to Apple
    Computers and peripherals used specifically for producing graphic designs. The
    acquisition of all other computer equipment and support services that were not
    waived should have been obtained through the Information and Technology
    Division. The Information and Technology Division’s mission was to provide
    approved computers and computer support throughout OSD. The Graphics
    Division, however, not only purchased excessive graphics-related computers but
    purchased other computers and equipment such as Sony LCD (liquid crystal
    display) flat screen monitors and Dell laptop computers.

    Palm Sized Computer. A Graphics Division cardholder purchased an
    iPAQ Pocket PC (hand held computer) from PC Connection on November 15,
    2001, for $599. The iPAQ is about the size of a calculator and comes with
    standard applications like Microsoft Pocket Word, Excel, and Outlook. This
    computer is not graphics-related and not covered by the Graphics Division
    waiver; therefore, the purchase was not authorized. Additionally, the
    Government need for this item was not justified. The Graphics Division had
    more than enough computer workstations in the office and ample portable laptop
    computers for working outside the office.




                                       35
Unauthorized Purchases
    Unauthorized purchases are not for Government use and not permitted by law.
    They are considered potentially fraudulent when items appear to be for personal
    use. The cardholders in the Graphics Division made at least seven purchases
    valued at $1,152 that were not for Government use and not permitted by law.
    Several of the purchases made by cardholders that appear to be for personal use
    include computer games, portable DVD carrying cases and headphones, a
    microwave, and other items.

    Computer Games. A Graphics Division cardholder purchased two Nintendo
    games from CompUSA on January 1, 2001. One was Ms. Pacman Maze for $40
    and the other was Asteroids for $35. The games were not located. It is doubtful
    that the games were used for a display in the Pentagon or any other valid
    Government need. It appears that they were purchased for personal use.
    Portable DVD Carrying Cases and Headphones. A Graphics Division
    cardholder purchased portable DVD carrying cases and headphones for the
    portable Panasonic DVD players totaling $160. The cardholder explained that the
    DVD players were for use in Pentagon display kiosks; however, the carrying
    cases and headphones appear to be solely for personal use.

    Microwave Oven. A Graphics Division cardholder purchased a Sharp
    microwave oven from Circuit City on September 30, 2000, for $128 with a 3-year
    warranty for $80. In addition to the fact that the microwave was an unauthorized
    purchase, it was not physically located anywhere in the Graphics Division, nor
    was it listed on any inventory record. When the cardholder was interviewed in
    July 2002, the cardholder claimed that the microwave oven blew up and was
    discarded even though it had a 3-year warranty.

    Posable Bender Family. A Graphics Division
    cardholder purchased three sets of the Posable
    Bender Family through the Internet on
    June 13, 2001, for $57. The Posable Bender
    Family consisted of bendable figures that were
    completely magnetic and came in a set of four
    (Joe Bender, Wendy Bender, Fender Bender
    the dog, and Mind Bender the black cat).
    These items may have been used in the office
    for amusement but were not mission-related
    and were solely for personal use.

    Mini-Component Stereo. A Graphics
    Division cardholder purchased an AIWA NSXAJ70 digital mini stereo system
    from Circuit City on December 5, 2000, for $237. This item was not found on
    any inventory. Furthermore, no mission need for the digital mini system could be
    determined and this item appeared to be for personal use.

    Elan Desk Fan. A Graphics Division cardholder purchased two Elan desk fans
    on June 13, 2001, for $48 each, totaling $96. This fan has patented soft-edge
    aerodynamic plastic blades that flex when stopped, eliminating the need for an




                                       36
unsightly protective grill. The fan is noted for its design rather than for its
functionality. This fan may have been used in the office; however, it is not
mission-related and is considered to be for personal use.

Wow Thing. A Graphics Division cardholder purchased a Wow Thing over the
Internet for $34 that included 3-day United Parcel Service shipping on
June 18, 2001. The Wow Thing is a small rectangular box about the size of a
portable cassette tape player that provides users with improved audio output from
their computers. A mission need for this item could not be determined from the
documents obtained from the cardholder and the item appeared to be for personal
use.

Kitchen CD Radio. A Graphics Division cardholder purchased two Sony under
the counter kitchen CD radios from the Frontgate mail catalog on
December 15, 2001, for $285 that included shipping. The radios were not located
until near the end of the audit when one turned up in the storeroom. The mission
need could not be determined for these items and it appeared that they were
bought for personal use.




                                      37
Appendix E. Unrecorded and Missing Properties

Transaction Date                   Description                    Purchase Price
    09/30/00       Facsimile Machine with warranty                   $ 389.95
    09/30/00       Digital Audio Recorder                               689.97
    09/30/00       Panasonic Digital Video Player with warranty         999.98
    09/30/00       Sharp Microwave Oven with warranty                   207.98
    10/01/00       Trim Tool Kit                                        499.00
    10/01/00       (2) Print server                                   1,171.00
    10/02/00       (2) Sony Digital Video Walkman                     1,719.90
    10/06/00       Hewitt-Packard Flatbed Scanjet                       440.00
    11/15/00       Sony Spressa Pro CD-RW Recorder                      292.80
    11/22/00       AHA SCSI External Drive                              269.95
    12/07/00       Aiwa Stereo Mini-Component                           237.49
    03/11/01       Apple G4 Powerbook                                 4,498.00
    03/21/01       (5) Plexor SCSI CD Writers                         1,942.10
    03/25/01       Apple G4 Powerbook                                 4,539.00
    03/29/01       20GB Hard Drive for Dell Notebook                    672.08
    04/10/01       Canon Rebel 2000 Camera and accessories              379.99
    04/18/01       Apple G4 Powerbook and accessories                 4,197.00
    04/20/01       Sony Cyber Digital Camera                            899.99
    05/03/01       Canon Camcorder                                    1,287.00
    09/07/01       (2) Pioneer DVD Players                            1,550.00
    09/29/01       Mamiya lens, filter, pouch, with warranty          1,287.80
    10/02/01       22-inch Apple Cinema Display                       2,375.00
    10/03/01       (2) Epson Stylus Photo 1280 wide Printer             489.00
    10/03/01       (2) Epson Stylus Photo 2000P Inkjet Printer          885.00
    10/04/01       Panasonic 9-inch Portable DVD Player                 999.99
    10/09/01       DVD Player                                         1,365.28
    10/12/01       Graphics Pro Keyboard                              4,493.99
    11/30/01       Sony Digital Video Player with warranty              219.98
    12/04/01       (2) Dell Latitude Pentium III Computer             8,350.00
    12/09/01       Panasonic 7.5-inch Portable DVD Player               949.95
    12/09/01       Panasonic RV80 DVD Player                            309.95
    12/22/01       Canon Rebel 2000 Camera Body                         299.99
    10/02/02       Pioneer Industrial DVD Player                        769.99
                                                                    $50,129.05




                                         38
Appendix F. Audit Results on Flagged
            Transactions
    Analysis of the flagged transactions identified for two cardholders at the Defense
    Civilian Personnel Management Service revealed no inappropriate activity. The
    flagged transactions for six cardholders at Washington Headquarters Services in
    the Alterations Working Group, Graphics and Presentations Division, Under
    Secretary of Defense (Policy), and Navy Annex division also revealed no
    inappropriate activity.

Defense Civilian Personnel Management Service
    Cardholder 1: Data mining techniques identified four flagged transactions for
    this cardholder. The four transactions were for administrative office supplies
    totaling $149.54 purchased from the Virginia Industry for the Blind. These
    transactions were considered appropriate.

    Cardholder 2: Data mining techniques identified one flagged transaction for this
    cardholder. This transaction was for two books totaling $19.90 entitled, “Guide
    to Health Insurance Plans for Federal Employees 2002.” This transaction was
    considered appropriate.

Washington Headquarters Services
    Cardholder 3: Data mining techniques identified 51 flagged transactions for this
    cardholder. The transactions were for supplies and services totaling $53,126 for
    alteration to existing facilities in the Pentagon. These transactions appeared to be
    appropriate based on information available during the review.

    Cardholder 4: Data mining techniques identified one flagged transaction for this
    cardholder to Staples for $706.09 in December 2001. The office was displaced by
    September 11 events and was relocated in Rosslyn, Virginia. This transaction
    appeared to be appropriate based on information available during the review.

    Cardholder 5: Data mining techniques identified one flagged transaction for this
    cardholder. The transaction was for maintenance supplies totaling $2,370. This
    transaction appeared to be appropriate based on information available during the
    review.

    Cardholder 6: Data mining techniques identified eight flagged transactions for
    this cardholder. These transactions were for posters and artwork totaling $17,906.
    The transactions appeared to be appropriate based on information available during
    the review.




                                         39
Cardholder 7: Data mining techniques identified 17 flagged transactions for this
cardholder. These transactions were for posters and artwork totaling $38,054.
The transactions appeared to be appropriate based on information available during
the review.

Cardholder 8: Data mining techniques identified one flagged transaction for this
cardholder. This transaction was for computer software totaling $249. The
transaction appeared to be appropriate based on information available during the
review.




                                   40
       Appendix G. Management Comments on the
                   Finding and Audit Response
WHS Comments on Criminal Activity Discovered. The Director, WHS maintained
that the $1.7 million in purchase card fraud was initially discovered and reported by
RE&F employees, not the auditors. The Director, WHS believed that the approving
officials and the Agency Program Coordinator may not have been negligent in
performing their duties and that the fraud went undetected because the Graphics Director
concealed her fraudulent activity by making small transactions that were spread over
time.

Audit Response. The assertion by the Director, WHS that the auditors did not initially
discover and report the potential fraud is incorrect. On June 6, 2002, the auditors alerted
the Defense Criminal Investigative Service (DCIS) to questionable purchases made by
the Graphics Deputy Director, one of the original flagged cardholders. On June 20, 2002,
the auditors met with the Graphics Director to discuss the questionable purchases made
by employees under the Director’s supervision. At this meeting the auditors informed the
Graphics Director that the audit would be expanded and requested monthly billing
statements and receipts for all cardholders in the Graphics Division including the
Director. On July 16, 2002, after several delays, the auditors obtained the Graphics
Director’s monthly statements and receipts. On July 24, 2002, the auditors alerted DCIS
of potentially fraudulent payments to Infinite Network Solutions and began preparing
documentation for an official referral for investigation. The Assistant Inspector General
for Audit signed the official referral on August 9, 2002. According to the WHS
Director’s response, a Graphics Division employee alerted the Agency Program
Coordinator to false tracking tickets for work performed by Infinite Network Solutions
on August 1, 2002. The false tracking tickets, or work orders, reported by the employee,
were produced by the Graphics Director to support the false invoices prepared for and
presented to the auditors on July 16, 2002. By the time the Agency Program Coordinator
was first notified of false tracking tickets, the auditors had already received the false
documents from the Graphics Director, identified the questionable purchases, and alerted
DCIS of the potential fraud.

The fact that the Agency Program Coordinator and the Director, RE&F responded
appropriately once they were alerted to the suspicious purchases is not germane to the
issue that oversight of the Graphics Director’s transactions was not provided for over
3 years. The approving official for the Graphics Director was required by DoD
regulation to review the purchase card receipts every month and approve them for
payment. We found no evidence of the monthly reviews by the approving official. We
believe that the Graphics Director may not have attempted her scheme, or her fraud
would have been identified sooner, had the Director’s monthly purchases been routinely
scrutinized. The Agency Program Coordinator could have identified questionable
transactions by reviewing monthly electronic billing summaries provided by the bank.
Key characteristics that would have identified questionable transactions for the Graphics
Director were multiple transactions with the same vendor on the same day and a high
percentage of transactions with one vendor. Analyses of the transactions do not support
the Director, WHS statement that the fraud was concealed by making small transactions
spread over time. The transactions represented a very high percent of transactions for




                                            41
most months and multiple transactions with Infinite Network Solutions were done on
only a few days of each month. (See below for examples of high number of transactions
on one day from Infinite Network Solutions.)

                       Examples of Infinite Network Solutions Same Day Charges

                  Transaction                Same Day                       Daily
                     Dates                  Transactions                    Totals
                  10/04/2000                     10                        $55,350.00
                  12/16/2000                     16                         34,575.00
                  01/04/2001                     13                         40,655.00
                  04/05/2001                     10                         21,530.00
                  05/02/2001                      9                         52,205.00
                  05/03/2001                     10                         22,130.00
                  06/28/2001                     19                         56,890.00
                  07/20/2001                     18                         54,800.00
                  07/21/2001                      8                         25,450.00
                  08/23/2001                     12                         38,250.00
                  08/24/2001                      6                         16,250.00
                  09/27/2001                     13                         27,150.00
                  11/14/2001                     10                         22,050.00
                  11/28/2001                     10                         22,200.00


The practice of making multiple purchases from the same vendor on the same day is a
tactic often used by cardholders to divide or split a purchase in order to stay below their
single transaction limit and is a key indicator of improper cardholder activity. Another
key indicator that a cardholder’s transactions must be reviewed is when the cardholder
exceeds the monthly purchase card limit. The Graphics Director made purchases well
over the Director’s documented monthly limit of $100,000 for 12 out of 16 months with
no apparent action taken by the Agency Program Coordinator. (See below for examples
of total monthly charges for Infinite Network Solutions as a percentage of total
transactions.)

                      Graphics Director Infinite Network Solutions (INS) Charges

     Statement                    Monthly                    Monthly                    INS
        Dates                    INS Totals                Card Totals               Percentages
     10/05/2000                 $ 11,620.00                $ 121,018.79*                 9.60
     11/05/2000                   126,785.00                 606,247.58*                20.91
     12/05/2000                    54,215.00                 345,854.77*                15.68
     01/05/2001                    80,190.00                 285,530.31*                28.08
     02/05/2001                    81,285.00                 113,858.50*                71.39
     03/05/2001                    40,950.00                 107,781.80*                37.99
     05/05/2001                    82,975.00                 108,964.78*                76.15
     06/05/2001                    92,565.00                 227,648.34*                40.66
     07/05/2001                    93,645.00                 109,297.84*                85.68
     08/05/2001                    80,250.00                 122,134.23*                65.71
     09/05/2001                    54,500.00                  87,434.42                 62.33
     10/05/2001                    63,300.00                 374,017.58*                16.92
     11/05/2001                    70,000.00                 321,671.11*                21.76
     12/05/2001                    66,850.00                  78,260.00                 85.42
     01/05/2002                    20,550.00                  67,536.54                 30.43
     Total                      $1,019,680.00              $3,077,256.59                33.14
 *Over documented monthly authorized $100,000 credit limit.




                                                 42
A cursory review of the pattern of transactions with Infinite Network Solutions from the
monthly electronic billing summary would have indicated the need for further
investigation as early as November 2000. Furthermore, during our interview with the
Agency Program Coordinator/Approving Official, she stated that she did not do the
required annual reviews of bank statements because she did not have time.




                                           43
Appendix H. Summary of Potential Monetary
            Benefits
   The Director of the Graphics and Presentations Division was convicted of
   theft of Government property on November 6, 2002, and sentenced on
   January 17, 2003, to 37 months imprisonment. The Director was also
   ordered to make full restitution of the $1,711,816 in fictitious purchases
   made with her Government purchase card. Additionally, the Deputy
   Director of the Graphics and Presentations Division was sentenced to
   3 years of supervised probation including 6 months of home confinement
   with electronic monitoring for the theft of over $30,000 in property
   purchased with the Government purchase card. The Deputy Director was
   also ordered to make full restitution for the items stolen. The restitution of
   these amounts will result in a monetary benefit to the Government of at
   least $1,741,816. See Appendix C for the full text of the United States
   Department of Justice Press Releases on the sentencing of the Director and
   the Deputy Director.




                                44
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
      Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Washington Headquarters Services
  Director, Real Estate and Facilities Directorate
Director, Defense Human Resources Activity
  Director, Department of Defense Civilian Personnel Management Service

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          45
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        46
Washington Headquarters Services Comments
                                            Final Report
                                             Reference




                    47
Final Report
 Reference




               48
     Final Report
      Reference




     Deleted




     See
     Discussion
     Appendix G




49
Final Report
 Reference




See
Discussion
Appendix G




See
Discussion
Appendix G




               50
     Final Report
      Reference




51
Final Report
 Reference




               52
     Final Report
      Reference




     Page 1,
     paragraph 3
     line 7


     Page 2,
     paragraph 2




     Page 2,
     last
     paragraph




     See
     Appendix G,
     Audit
     Response,
     paragraph 2




53
Final Report
 Reference




Deleted




Page 5,
paragraph 2




Deleted




Page 6,
paragraph 4,
line 7
See
Appendix G
Audit
Response




               54
     Final Report
      Reference




     Page 7,
     line 2
     See
     Appendix G
     Audit
     Response
     paragraph 1




     Page 7,
     line 5
     See
     Appendix G
     Audit
     Response
     paragraph 2
     Page 7,
     line 7
     See
     Appendix G
     Audit
     Response




     Page 7,
     paragraph 2,
     line 4
     See
     Appendix G
     Audit
     Response
     paragraph 2




55
Final Report
 Reference




Revised
Page 7,
paragraph 2


Page 8,
paragraph 1,
line 4
See
Appendix G
Audit
Response
paragraph 1




Revised and
Renumbered
A.1.a.




Renumbered
A.1.b.




               56
     Final Report
      Reference




     Renumbered
     A.2.a.




     Renumbered
     A.2.b.




     Renumbered
     A.2.c




     Renumbered
     A.3.




57
Final Report
 Reference




Renumbered
A.2.d.




Renumbered
A.4.




Renumbered
A.1.c.




               58
     Final Report
      Reference




59
Final Report
 Reference




               60
     Final Report
      Reference




61
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Joseph P. Doyle
Bobbie Sau Wan
Karen L. Jones
Joyce S. McCutcheon
Chuck J. Chin
Gloria A. Burnett
Deana M. Wyatt
Lisa Rose-Pressley
